USAA CREDIT CARD AGREEMENT
USAA SAVINGS BANK

Table of Contents
1.
2.
3.
4.
5.
6.
7.

13. Payment of Your Transactions and Stopping
Payment of Convenience Checks . . . . . . . . . . . . . . . .
14. Legal Transactions Only . . . . . . . . . . . . . . . . . . . . . . . .
15. Transactions Made in a Foreign Currency . . . . . . . .
16. Merchant Return Policy . . . . . . . . . . . . . . . . . . . . . . . .
17. Reservations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .
18. Recurring Transactions and Automatic Payments .
19. Limitation of Our Responsibilities for Merchant
Actions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .
PART C: Your Liability
20. Your Promise to Pay . . . . . . . . . . . . . . . . . . . . . . . . . . .
21. Allowing Others to Use the Account . . . . . . . . . . . . .
22. Releasing Person from Account Liability . . . . . . . . .

PART A: Important Information about this Agreement
The Parties to this Agreement . . . . . . . . . . . . . . . . . . p.4
The Documents that Make Up this Agreement . . . . p.4
When You Become Bound by this Agreement . . . . . p.4
Changes to Agreement . . . . . . . . . . . . . . . . . . . . . . . . p.5
Governing Law . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . p.5
Words Used Often in this Agreement . . . . . . . . . . . . p.5
Waiver/Provisions of Agreement are Separable . . . p.5

PART B: Use of Account
8. Transactions You May Make and the Fees and
Charges You Will Pay . . . . . . . . . . . . . . . . . . . . . . . . . .
9. Interest . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .
10. Your APRs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .
11. How to Avoid Paying Interest on Purchases
(Your Purchase Grace Period) . . . . . . . . . . . . . . . . . .
12. Transaction Limits . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

p.6
p.7
p.8
p.8
p.9
2

p.10
p.10
p.11
p.11
p.11
p.11
p.11
p.12
p.13
p.13

PART D: Your Payments
23. Your Bills and Required Minimum Payments . . . . . . p.14
24. Form of Payments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . p.15
25. Payment of Disputed Balances . . . . . . . . . . . . . . . . . . p.16

PART E: Default and Collections
26. Default . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . p.17
27. Attorney Fees . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . p.17
28. Account Settlements . . . . . . . . . . . . . . . . . . . . . . . . . . p.17

32.
33.
34.
35.
36.
37.
38.

PART F: Miscellaneous Provisions
29. Closing an Account and Continuation of Certain
Terms of this Agreement . . . . . . . . . . . . . . . . . . . . . . . p.18
30. Lost, Stolen or Unauthorized Use of Cards or
Convenience Checks . . . . . . . . . . . . . . . . . . . . . . . . . . . p.18
31. Notices and Materials from Us to You . . . . . . . . . . . . p.18

Your Duty to Provide Us Certain Information . . . . .
Notices and Materials from You to Us . . . . . . . . . . . .
Telephone Monitoring . . . . . . . . . . . . . . . . . . . . . . . . . .
Credit Information . . . . . . . . . . . . . . . . . . . . . . . . . . . . .
Assignment . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .
Other Agreements . . . . . . . . . . . . . . . . . . . . . . . . . . . .
Expedited Delivery Service . . . . . . . . . . . . . . . . . . . . .

p.19
p.19
p.19
p.19
p.19
p.19
p.20

Your Billing Rights . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . p.21–23
USAA Contact Information . . . . . . . . . . . . . . . . . . . . . . . p.24–25

3

USAA Credit Card Agreement
Universal Terms and Conditions
This USAA Credit Card Agreement (“Agreement”) contains the terms and conditions for use of a USAA Credit Card account
(“Account”).
PART A: Important Information about this Agreement
1.

The Parties to this Agreement. This Agreement is made by and between USAA Savings Bank and each Cardholder and any
other person who uses the Account. The words “we,” “us,” “our,” or “Bank” refer to USAA Savings Bank. The words “you,”
“your,” or “yours” refer to a Cardholder or to a person who uses a USAA Credit Card account. The word “Cardholder” has
the meaning described in section 20.

2. The Documents that Make Up this Agreement. This Agreement consists of the following documents: (a) the Universal Terms
and Conditions that you are reading now; (b) the Pricing Schedule; (c) the Arbitration Addendum; and (d) any other document
that we provide to you that indicates it is part of or amends this Agreement. Collectively, all these documents are referred to
as the “Agreement” and all terms and conditions in the Agreement are referred to as the “Terms.”
3.

When You Become Bound by this Agreement. If you are a Cardholder, this Agreement becomes effective and you agree to
its Terms on the earlier of (1) the first or next use of the Account, or (2) ten days after we mail or deliver this Agreement to
any Cardholder. For all others, this Agreement becomes effective and you agree to its Terms when you use the account.
4

4. Changes to Agreement. We may change this Agreement at any time, whether by adding new terms and conditions, or deleting
or amending existing ones. The changes will apply to existing and future balances unless our notice states otherwise. If required
by law, we will send notice of the change at least 45 days before it becomes effective. We will provide Cardholders an opportunity
to reject certain changes. When we do, we may require the Account to be closed if the change is rejected.
5. Governing Law. The Agreement is governed by the laws of Nevada and the United States of America. In addition, if your
billing address is in the state of Maryland, except to the extent preempted by the laws of the United States, title 12, subtitle 9,
of the Maryland Commercial Law Code will also apply.
6. Words Used Often in this Agreement. “American Express” means American Express Travel Related Services Company, Inc.
“APR” means Annual Percentage Rate. “ATM” means automated teller machine. “Credit Card” or “Card” means any USAA
Credit Card issued on your Account. “Convenience Check” means a check or other instrument drawn on your Account. “Margin”
means the number of percentage points added to the Prime Rate to calculate an APR on your Account. “MasterCard” means
MasterCard International, Inc. “Visa” means Visa U.S.A. Inc. Other terms are defined elsewhere in this Agreement.
7.

Waiver; Provisions of Agreement Are Separable. If we fail to exercise any of our rights under this Agreement, we do not waive
any of our rights in the future. If any provision of this Agreement is held to be invalid or unenforceable, the rest of this
Agreement will remain in full force.

5

PART B: Use of Account
8. Transactions You May Make and the Fees and Charges You Will Pay.
You make

Purchases

Cash
Advances

When you:

And you pay these fees and charges on each transaction:

Use your Card to pay for goods or services
anywhere your Card is accepted, including:
• In person at point of sale,
• By mail or telephone, or
• On the internet.
• Write a Convenience Check;
• Obtain cash or cash equivalents anywhere
your Card is accepted. Cash equivalents
include items such as travelers’ checks,
money orders, lottery tickets, gaming
chips**, and any other item that may be
converted into cash or that we deem to be
Cash Advances.
• Transfer funds into a deposit or asset
account (including under an overdraft
protection agreement).

•

Interest* (unless the grace period applies) from the date
of the Purchase until the date you pay us back.

•

Interest* from the date you obtain cash or write a
Convenience Check until the date you pay us back.
Cash Advance Fee in the amount described in the Pricing
Schedule. This fee is waived for electronic fund transfers
to a USAA deposit account.

•

6

•
Balance
Transfers

Transfer a balance from another creditor to
your Account.

•

Interest* from the date we process the Balance Transfer
until the date you pay us back.
Balance Transfer Fee in the amount described in the
Pricing Schedule.

*Please see the Pricing Schedule for the interest rates.
**American Express Cards are not accepted for the purchase of bets, lottery tickets, or casino gaming chips.
9. Interest. We calculate interest for each billing cycle as follows:
• At the end of each day, we add any new transactions, interest, fees, and other charges to your balance and subtract any
payments or credits. (We do not add new Purchases when a grace period applies.)
• Next we add all the daily balances together and divide the sum by the number of days in the billing cycle. This gives us
the average daily balance. We multiply the average daily balance by the monthly interest rate and add the interest to the
balance. The average daily balance is called the “Balance Subject to Finance Charge” on your bills.
We calculate interest in this manner separately for Purchases, Balance Transfers, Cash Advances, and each promotional
rate balance.

7

10. Your APRs. Your Annual Percentage Rate(s) or APR(s) are shown in the Pricing Schedule. If an APR is a variable rate, it
varies monthly with the market based on the Prime Rate. We determine your variable APRs each billing period as
follows:
• First, we use the Prime Rate published in The Wall Street Journal on the 15th day of the same calendar month in which
the billing period begins. If the Prime Rate is not published that day, then we use the Prime Rate on the next day on
which it is published. (If the Prime Rate ceases to be published, we will choose a substitute index in accordance with
applicable law.)
• Second, we add a Margin to the Prime Rate. This sum is the APR that will apply for the entire billing period. See the
Pricing Schedule for the amount of your Margin. Any increase in the APR may increase your minimum payment and the
amount of interest you pay.
From time to time we may offer you a Promotional APR. The terms of the Promotional APR are either described in the
Pricing Schedule or in a separate letter or document. We round all APRs to the second decimal place and all monthly interest
rates to the third decimal place.
11. How to Avoid Paying Interest on Purchases (Your Purchase Grace Period). You have a grace period in which you can avoid
paying interest on the new Purchases that are itemized on your bill. If the Previous Balance on your bill was paid in full by its
Due Date (or if it was a zero or credit balance), we do not charge monthly periodic interest on the Purchases on your current
bill that you pay by its Due Date. The grace period does not apply when any portion of your Previous Balance remains unpaid
or if it is paid late. Cash Advances and Balance Transfers do not have any grace period.
8

12. Transaction Limits. We may establish limits on the amount you may borrow or types of transactions we will permit, such as
one or more of the following:
• Credit limit which is the maximum amount we have approved to be carried in unpaid Account balances;
• Cash Advance, Balance Transfer, or Purchase Limits which is the maximum balance for each type of transaction you
may have;
• Revolve limit which is the maximum unpaid balance we will permit you to carry from one month to another;
• Daily limits which are limits on the number or total dollar amount of certain transactions that we will authorize in a
single day;
• Location limits which are certain geographic or merchant locations where we may not permit transactions to be made
usually due to a higher risk of fraud or illegal activity.
• Legal limits are limits on the use of an Account we deem necessary to comply with the law or prevent liability to us or
anyone else.
• Other limits which we may establish to prevent fraud or losses on the Account or to protect USAA, its members,
vendors, affiliates, or other persons.
We will tell you about some of the limits such as your credit limit; however, for security and other reasons we will not tell
you about all the limits we set. You agree not to exceed the limits we tell you about or allow the Account to exceed them.
We can increase, reduce, cancel, or suspend any of the limits or add new limits at any time.
9

13. Payment of Your Transactions and Stopping Payment of Convenience Checks
• Card Transactions. The person accepting your Card must obtain an authorization from us. If they do not, we may but are
not required to accept the transaction. We may deny an authorization for any reason. We are not liable for our refusal or
failure to authorize a transaction. You may not stop the payment of any Card transaction.
• Convenience Checks. We may reject and return unpaid any Convenience Check you write for any reason. You must pay
us for any Convenience Check we pay, even if we were permitted to reject and return the Convenience Check, unless the
Convenience Check constitutes Unauthorized Use as defined in Section 30. We may refuse to issue Convenience Checks
or, upon notice to you, refuse to permit the use of Convenience Checks already issued. You may visit usaa.com or call us
at 1-800-531-USAA(8722) to place a stop payment on an unpaid Convenience Check. We will charge a stop payment fee of
$20. You must provide us the date, amount, name of payee, and the number of the Convenience Check. If any information
you provide is incorrect or if you do not afford us a reasonable opportunity to act on your request, we may not be able to
stop payment. Once a Convenience Check has been paid, we will not be able to reverse the payment. Your stop payment
request will remain valid for six months. You must renew your request before it expires if you want us to continue honoring
it. You agree to hold harmless and indemnify us from any losses, expenses and costs, including attorney fees incurred by
us, for preventing or failing to prevent payment.
14. Legal Transactions Only. You shall reimburse, indemnify, and hold harmless MasterCard, American Express, VISA, and us for
any and all amounts, expenses, or damages resulting from your alleged illegal use of the Account.
10

15. Transactions Made in a Foreign Currency. When you make a transaction in a foreign currency, it will be converted into U.S.
Dollars by either: (a) MasterCard, American Express, or Visa or (b) the merchant or its agent. We do not convert your transactions
into U.S. Dollars, and we are not responsible for the conversion rates or processes used by the person who does.
16. Merchant Return Policy. If a merchant has a policy such as “no returns,” “no refunds,” “no return or credit without receipt,”
“as is,” “store credit only,” or “all sales final,” you will be bound by that policy. If a merchant does not disclose a policy, you
should ask what the return policy is to protect yourself.
17. Reservations. When using your Account to make travel or lodging reservations, obtain the cancellation policy. If you cancel,
make sure you follow the policy and always obtain a cancellation number. Otherwise, the merchant or service provider may
charge the Account for the transaction, and you may not refuse to pay us based on your cancellation.
18. Recurring Transactions and Automatic Payments. If you authorize a merchant to charge your Account for repeat or
recurring transactions, you must notify the merchant if: (a) you want to discontinue the recurring transactions on your
Account; (b) your Account is closed; or (c) your Account number or Card expiration date changes.
19. Limitation of Our Responsibilities for Merchant Actions. We will not be responsible for: (a) the merchandise or services you
purchase with your Account; (b) the refusal of any person to honor your Card, Convenience Check or Account; or (c) an ATM
that does not properly accept your Card, disperse cash, or otherwise perform as you requested. However, you may have certain
billing rights and rights if you are dissatisfied with your credit card purchase, as summarized in the notice on pages 21–23.
11

PART C: Your Liability
20. Your Promise to Pay. You promise to pay us all amounts for which you are liable as follows:
YOUR LIABILITY
You are a:

If you:

Cardholder

Established the Account, signed an application
or other document establishing your liability, or
made a transaction or payment knowing that
your name appears on a Bill for the Account.
If your name appears on a Bill, this means our
records show you are a Cardholder.
•

Authorized
User

•

And you are Liable for:
The entire Account balances including any transactions made
by you, another Cardholder, or an Authorized User, and any
interest or fees. If there is more than one Cardholder, you are
each jointly and severally liable for these amounts. This
means we may, at our sole option, collect the entire Account
balance from any one of you, or we may collect a portion
from each of you.*

Were granted express, implied, or apparent
authority to use the Credit Card or the
Account.
Make a transaction that results in a direct or
indirect benefit to a Cardholder or any
member of the Cardholder’s immediate
family.

The transactions you make plus any related interest or fees.
We will not attempt to collect from you unless a Cardholder
refuses or fails to pay us.*

12

Are anyone using the Account other than a
The transactions you make plus any related interest and
Cardholder or an Authorized User.
fees.*
*At our option, we may transfer amounts you owe to a separate account in your name for billing purposes and report the
account to the credit bureaus. The billing-only Account will not be open to new transactions.
Other User

21. Allowing Others to Use the Account: Think carefully before allowing anyone to use the Account. This Account does not
permit you to limit the nature or amount of authority granted to an Authorized User. An Authorized User shall have the
same authority as a Cardholder to (1) make Purchases, Balance Transfers, or Cash Advances; (2) access Account
information; and (3) authorize others to use the Account. A Cardholder does not need our permission to make someone an
Authorized User, although we reserve the right to refuse to honor a request for an additional Card. To terminate the
authority of an Authorized User, a Cardholder must first notify us and then request a new Account Number. If a Cardholder
chooses to keep the same Account number, you understand that we cannot prevent the person from continuing to use the
Account and you agree that any further use by the person will remain authorized.
22. Releasing Person from Account Liability. We may release a Cardholder, Authorized User, or Other User from liability at any
time and in our sole discretion. We are not bound by any terms of a divorce decree including those that allocate liability for
the Account between ex-spouses.

13

PART D: Your Payments
23. Your Bills and Required Minimum Payments. We will send a bill each month when there is a balance over $1 or an interest
charge. We must receive payment of at least the Minimum Payment by the Due Date on each bill.
YOUR MINIMUM PAYMENT AMOUNT
Each Minimum Payment is one of the following amounts, whichever is greatest:
The sum (rounded to the nearest dollar) of :
• 1% of the New Balance;
OR
• Finance Charges, Interest, Fees;
$15 plus any past due amount (or your
• Debt Protection fees;
New Balance if less than $15);
• Other Charges we may impose; and
• Any past due amount;

OR
Your Overlimit amount.

Late/Returned Payment Fees. If we do not receive payment by the Due Date or if a payment is returned to us unpaid, we
charge a Late Fee or Returned Payment Fee equal to the amount of the Minimum Payment that was due immediately before
the date on which a payment (i) became late (in the case of the Late Fee); or (ii) was returned to us (in the case of a Returned
Payment Fee), in either case up to the amount shown in the Pricing Schedule. We will not charge both fees based on the
same Minimum Payment due.
How we apply Payments. We may apply Minimum Payments and other credits other than payments in any order we deem
appropriate. Amounts paid in excess of a Minimum Payment are applied to the balance with the highest APR.
14

When we credit Payments. Payments received by us before 5 p.m. Central Time that meet the payment conditions in section
24 and on your bill will be credited as of the day of receipt. Payments that we accept that do not meet these requirements will
be credited within 5 days unless they require special handling. We reserve the right to withhold credit availability on any payment.
Pay-Ahead Program: The Minimum Payment as calculated above is your Regular Minimum Payment. If your Account is eligible
for our Pay-Ahead Program and is in good standing, when you pay more than the Regular Minimum Payment, we may, at our
option, permit you to skip some or all of your next two Regular Minimum Payments. When this occurs, we continue to calculate
your Regular Minimum Payment, however the amount of the minimum payment due displayed on the first page of your bill, on
usaa.com, and on our phone systems is reduced by the amount you may skip. The full Regular Minimum Payment amount is
always shown in the Important Account Information section of your bill. Remember Finance Charges will continue to accrue
in accordance with the Terms of this Agreement. You may opt out of the Pay-Ahead Program at any time by calling us at
1-800-531-USAA(8722).
24. Form of Payments.
• DO NOT MAIL CASH, OR SEND ANY CORRESPONDENCE TO OUR PAYMENT ADDRESS. We are not liable for any lost
or stolen cash payments unless you have a receipt we issue to you at the time of payment.
• All checks and other payment instruments must be in U.S. Dollars and drawn on funds on deposit in a federally insured
institution in the United States. Make sure to include your payment coupon from your Bill and/or your account number on
your check or payment instrument. If you postdate your payment, you authorize us to process it on the date we receive it,
even if it is before the date on the payment item. When you pay by check, you authorize us to use information from your
15

•

check to make a one-time electronic funds transfer from your checking account. Funds may be withdrawn from your
account as early as the day we receive your payment, and you will not receive your check back from your bank.
We may, but are not required to, accept any payment that in our sole discretion does not meet the above requirements
or that we deem to be of a questionable nature or to require any special handling (a “Non-Conforming Payment”). Our
decision to accept a payment is final. If we choose to accept a Non-Conforming Payment, we may charge you a
reasonable service and collection fee. If we refuse to accept a payment and you re-present it to us, we will have no
further responsibility to respond; however, if we do, you agree to pay us for our time and costs for handling your
requests, including our employees’ time and attorney fees for research and handling.

25. Payment of Disputed Balances. Any check or other payment which you send to us for less than the full balance that is
marked as “paid in full” or with any similar language or that you otherwise tender as full satisfaction of a disputed amount
must be sent to USAA Credit Card Resolution Services, P.O. Box 34894, San Antonio, TX 78265. We may process payments
mailed to any other address without regard to or being bound by any restrictions written on or sent with the check or
payment instrument, and may accept payments that are marked with “paid in full” or any similar language without waiving
or losing any of our rights to receive full payment under this Agreement.

16

PART E: Default and Collections
26. Default. Your Account is in Default if you fail to comply with any of the Terms of this Agreement or the terms of any other
agreement with us or our affiliates; in the event of your death, incompetence, bankruptcy, insolvency, fraud or misrepresentation;
or if any statement or information you made to us in your application or otherwise was untrue or incomplete. If you are in
Default, we may, at our option suspend or cancel the Account and/or require you to pay the full amount you owe us at once
(to the extent permitted, and after notice if required by law).
27. Attorney Fees. If we refer your Account to an attorney for collection, we may charge you for our reasonable attorney fees
(including costs for attorneys who are employed by us) and court costs incurred by us to extent permitted by law.
28. Account Settlements. Any settlement of your Account balance for less than what is owed requires our written agreement.

17

PART F: Miscellaneous Provisions
29. Closing an Account and Continuation of Certain Terms of this Agreement. We may close or suspend an Account at any time
without prior notice. A Cardholder may also close an Account by notifying us. Once your Account is closed, (A) you may not
make any new transactions, and you must destroy all Cards and Convenience Checks; and (B) you must repay any outstanding
balance pursuant to the Terms of this Agreement. Closing the Account will not prevent transactions made from being
added to the Account and you will remain liable for all unpaid balances including for transactions made or processed after
the date the Account is closed.
30. Lost, Stolen or Unauthorized Use of Cards or Convenience Checks. You must tell us at once if a Card or Convenience
Check is lost or stolen or you think someone used your Account without your permission. You may notify us by calling
1-800-531-USAA(8722). Cardholders are not liable for Unauthorized Use of a Credit Card. “Unauthorized use” means use
by someone other than a Cardholder or Authorized User for which a Cardholder or any member of a Cardholder’s
immediate family does not receive a direct or indirect benefit.
31. Notices and Materials from Us to You. We may send Cards, Convenience Checks, this Agreement, bills, notices and any
other Account materials to any Cardholder at the last billing address provided to us, and this will be considered delivery
and notice to all of you.

18

32. Your Duty to Provide Us Certain Information. You must notify us of any changes to your name, address, home or business
telephone number, employment or income within 30 days of such change. You will also provide us updated financial
information upon our request.
33. Notices and materials from you to us. You must contact us or send us materials at the places listed in the USAA Contact
Information on pages 24 and 25.
34. Telephone Monitoring. We may listen to and record telephone calls between you and us for the purpose of monitoring and
improving the quality of service you receive.
35. Credit Information. You have the right to dispute the accuracy of information we have reported. If you wish to do so, write
us at: USAA Federal Savings Bank, Attn: USAA/Consumer Report Disputes, Attn: Form Code # CLCBD, PO Box 33009,
San Antonio, TX 78265-3009. Please include your name, address, Account number, telephone number, Social Security number
and a brief description of the problem. If available, please include a copy of the credit report in question.
36. Assignment. We may assign your Account or this Agreement without obtaining your consent. You may not assign your
Account or this Agreement.
37. Other Agreements. This Agreement constitutes the entire agreement, and supersedes all prior agreements, between you
and us governing the use of the Account.
19

38. Expedited Delivery Service. If you request us to send you anything related to your Account by expedited delivery and we
can honor your request, we may charge your Account our Expedited Delivery Charges in effect at the time. We will advise
you of the amount of the fee whenever you request expedited delivery.
Thank you,
USAA Savings Bank
IMPORTANT INFORMATION ABOUT PROCEDURES FOR OPENING A NEW ACCOUNT — To help the government fight the
funding of terrorism and money laundering activities, federal law requires all financial institutions to obtain, verify, and
record information that identifies each person who opens an account. What this means for you: When you open an account,
we will ask for your name, address, date of birth, and other information that will allow us to identify you. We may also ask to
see your driver’s license or other identifying documents.

20

Billing Rights Notice
scheduled, if you want to stop payment on the amount
you think is wrong.
You must notify us of any potential errors in writing. You may
also contact us on the Web at www.usaa.com or by phone at
1-800-531-USAA(8722), but if you do, we are not required to
investigate any potential errors, and you may have to pay the
amount in question.

Your Billing Rights: Keep this Document for Future Use
This notice tells you about your rights and our responsibilities
under the Fair Credit Billing Act.
What to Do if You Find a Mistake on Your Bill
If you think there is an error on your Bill, write to us at:
USAA Credit Card Services, P.O. Box 65020,
San Antonio, TX 78265-5020.

What Will Happen After We Receive Your Letter
When we receive your letter, we must do 2 things:
1. Within 30 days of receiving your letter, we must tell you
that we received your letter. We will also tell you if we have
already corrected the error.
2. Within 90 days of receiving your letter, we must either correct
the error or explain to you why we think the bill is correct.

In your letter, give us the following information:
• Account information: Your name and account number.
• Dollar amount: The dollar amount of the suspected error.
• Description of problem: If you think there is an error on
your bill, describe what you believe is wrong and why you
believe it is a mistake.
You must contact us:
• Within 60 days after the error appeared on your Bill.
• At least 3 business days before an automated payment is
21

While we investigate, whether or not there has been an error:
• We cannot try to collect the amount in question or report
you as delinquent on that amount.

•
•
•

to whom we reported you as delinquent, and we must let
those organizations know when the matter has been
settled between us.
If we do not follow all of the rules above, you do not have to
pay the first $50 of the amount you question even if your bill
is correct.

The charge in question may remain on your Bill, and we
may continue to charge you interest on that amount.
While you do not have to pay the amount in question, you
are responsible for the remainder of your balance.
We can apply any unpaid amount against your credit limit.

After we finish our investigation, one of two things will happen:
• If we made a mistake: You will not have to pay the amount
in question or any interest or other fees related to that
amount.
• If we do not believe there was a mistake: You will have to
pay the amount in question, along with applicable interest
and fees. We will send you a Bill of the amount you owe
and the date payment is due. We may then report you as
delinquent if you do not pay the amount we think you owe.
If you receive our explanation but still believe your bill is
wrong, you must write to us within 10 days telling us that
you still refuse to pay. If you do so, we cannot report
you as delinquent without also reporting that you are
questioning your bill. We must tell you the name of anyone

Your Rights if You Are Dissatisfied with Your Credit Card
Purchases
If you are dissatisfied with the goods or services that you
have purchased with your credit card, and you have tried in
good faith to correct the problem with the merchant, you may
have the right not to pay the remaining amount due on the
purchase.
To use this right, all of the following must be true:
1. The purchase must have been made in your home State
or within 100 miles of your current mailing address, and the
purchase price must have been more than $50. (Note: Neither
of these are necessary if your purchase was based on an
22

Liability for Unauthorized Use
If you notice the loss or theft of your credit card or a
possible unauthorized use of your card, call us immediately
at 1-800-531-USAA(8722) (overseas, call collect, (210) 282-8879).
You may also contact us on the Web at www.usaa.com or
write to us at: USAA Credit Card Services, 10750 McDermott
Fwy, San Antonio, TX 78284-8499. With our Zero Liability
Policy, you are not liable for Unauthorized Use of your Card.

advertisement we mailed to you, or if we own the company
that sold you the goods or services.)
2. You must have used your credit card for the purchase.
Purchases made with cash advances from an ATM or with a
check that accesses your credit card account do not qualify.
3. You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still dissatisfied
with the purchase, contact us in writing at: USAA Credit Card
Services, P.O. Box 65020, San Antonio, TX 78265-5020. While
we investigate, the same rules apply to the disputed amount
as discussed above. After we finish our investigation, we will
tell you our decision. At that point, if we think you owe an
amount and you do not pay, we may report you as
delinquent.

23

USAA Contact Information
For:

Send information or contact us here:

Lost/Stolen Card

Call us immediately at: 1-800-531-USAA(8722), (overseas, call collect, (210) 282-8879).
Or go to: www.usaa.com

General matters such as:
• Changing your address, phone
number, etc.
• Request a credit limit increase

•
•
•

Online at: www.usaa.com
By phone at: 1-800-531-USAA(8722)
Write to: USAA Credit Card Services, 10750 McDermott Freeway, San Antonio, TX
78288-9786

Questions or disputes about your bill
or transactions on the Account

•

To protect your rights, you should write to us at: USAA Credit Card Services,
P.O. Box 65020, San Antonio, TX 78265-5020
You may also contact us on the Web at www.usaa.com or by phone at
1-800-531-USAA(8722), but this will not preserve your rights.

•

Questions or disputes about our
Write to:
reports of your Account to the credit
bureaus

USAA/Consumer Report Dispute
Attn: Form Code # CLCBD
PO Box 33009
San Antonio, TX 78265-3009
24

Arbitration papers

If you choose to begin arbitration, you must send arbitration notices to:
• USAA General Counsel, 9800 Fredericksburg Road, San Antonio, TX 78288.

Payments

Make your payment:
• Online at: www.usaa.com
• By telephone at: 1-800-531-USAA(8722)
Mail your payment to:
USAA Credit Card Payments
10750 McDermott Fwy
San Antonio, TX 78288-0570
(Do not send any correspondence to the payment address.)
IMPORTANT: For payments tendered as full satisfaction of a disputed balance for
less than what we claim you owe, you must mail your payment and letter to: Card
Resolution Services, P.O. Box 34894, San Antonio, TX 78265

Copies of Documents

To request documents:
• By telephone at: 1-800-531-USAA(8722)
• By mail: USAA Credit Card Payments, 10750 McDermott Fwy, San Antonio, TX
78288-0570
We charge a fee of $10 per copy.
25

26

27

126004-0320

USAA Credit Card Agreement Pricing Addendum
Interest Rates and Charges

ANNUAL
PERCENTAGE
RATE (APR)

The Regular APR ranges from

6.90% to 25.90%

(0.575

to 2.158 monthly periodic rate) based on credit worthiness and other
factors, except for special accounts offered to pre-commissioned
officers whose Regular APR is

7.75%

(0.646 monthly periodic

rate). The APRs vary with the market based on the Prime Rate plus a
margin ranging from 3.65 to 22.65 percentage points (4.50
percentage points for the Pre-Commission Officer Program).
Penalty APR

None

Variable Rate
Information

We use the Prime Rate published in The Wall Street Journal on the
15th day of the calendar month in which the billing period begins. If
the Prime Rate is not published that day, then we use the Prime Rate
on the next day on which it is published. Any increase in the APR will
increase your minimum payment and amount of interest you pay.

Paying Interest

Your due date is at least 25 days after the close of each billing cycle.
We will begin charging interest on purchases, cash advances, and
balance transfers on the transaction date until they are paid.
However, we will not charge you interest on purchases if you pay
your entire balance by the due date each month. However, this grace
period applies only to the Purchases on your current bill if the
Previous Balance was paid in full by its Due Date (or if it was a zero
or credit balance). Interest is charged and the grace period does not
apply when any portion of your Previous Balance remains unpaid or if
it is paid late. Cash Advances and Balance Transfers do not have any
grace period.
How We Calculate lnterest - We calculate interest for each billing
cycle as follows:

At the end of each day, we add any new transactions, interest, fees,
and other charges to your balance and subtract any payments or
credits. (We do not add new Purchases when a grace period applies.)
Next we add all the daily balances together and divide the sum by the
number of days in the billing cycle. This gives us the average daily
balance. We multiply the average daily balance by the monthly
periodic interest rate and add the interest to the balance. The
average daily balance is called the "Balance Subject to Finance
Charge" on your bills.
We calculate interest in this manner separately for Purchases,
Balance Transfers, Cash Advances, and each promotional rate
balance.
Minimum
Interest Charge

None

Fees
Annual Fee

$0 to $49

Transaction
Fees
Balance Transfer

3% of the amount of each transfer.

Cash Advance

3% of the amount of each cash advance. Fee waived when
transferring funds electronically to a USAA deposit account.

Foreign Transaction None
Penalty Fees
Late Payment

Up to $35

Returned Payment

Up to $35

Over-theCredit-Limit

None

108780-0320

USAA Credit Card Agreement Arbitration Addendum
This Arbitration Addendum is part of the USAA Credit Card Agreement. All capitalized words
that are not defined in this Arbitration Addendum have the same meanings as in the
Universal Terms and Conditions of the Agreement. The terms "each of us," "either of us,"
"neither of us," "both of our," or "both of us" refer to "you and we" or "you and us."
This Arbitration Addendum provides that either of us may elect to have a dispute resolved
by arbitration rather than in a court by a judge or a jury. When arbitration is elected, both
of our rights to go to court, have a trial by jury, conduct discovery, appeal, and to
participate in a class action or any similar proceeding will be substantially limited.

A.1 How will disputes and claims be resolved?


Any Covered Claim, upon election by either of us, shall be resolved by arbitration
according to the terms of this Arbitration Addendum. Arbitration is a method of resolving
claims and disputes between parties without having to file a lawsuit in court. Parties in an
arbitration present their claims and disputes to a neutral third person — an arbitrator —
instead of a judge or jury. Arbitration is the way all parties to this Agreement will resolve
any Covered Claim, except those subject to small claims courts as described below in
section A.5.



All Covered Claims must be submitted to arbitration, including without limitation (a) those
based in contract; tort; state or federal statutes, regulations or ordinances; state or federal
common law; state or federal constitutional law; and (b) those seeking any form of
equitable or declaratory relief or money damages.

A.2 What is a covered claim?
A Covered Claim is (without limitation) any pre-existing, present, or future dispute, claim,
or controversy that in any way arises out of or relates to:


This Agreement as it has been or will be amended from time to time, or the scope, validity,
and enforceability of any Terms (including the Universal Terms and Conditions, the Pricing

Schedule, this Arbitration Addendum, and any other document we provide that indicates it
is part of the USAA Credit Card Agreement).


The Account or Account disclosures, including for example any application, advertisement,
disclosure, promotion, or oral or written statement related to the Account, or the
establishment, operation, or termination of your Account, whether occurring or made
before your Account was opened or after it was closed or terminated.



A Purchase, Balance Transfer, or Cash Advance, Convenience Check, interest, finance
charge, fee, or other charge.



A payment (or returned payment) or credit (or the failure to provide a credit).



Your Account balance or any billing or collections matters relating to your Account.



Any products, services, or benefit programs related to or offered in connection with your
Account (including any insurance, debt cancellation, rewards program, rebates,
sweepstakes, discounts, coupons, or benefits listed in your Account's Guide to Benefits).



Our receipt, use, or disclosure of any information about you or your Account (including but
not limited to any credit reporting or information sharing).



The terms or method of financing (including the amount of fees, finance charges, or your
credit limit).



Any other matters relating to your Account or your past, present, or future relationship
with us.
Any questions about whether a claim or dispute is a Covered Claim subject to arbitration
shall be resolved by interpreting this Arbitration Clause in the broadest way it may be
enforced, consistent with the Federal Arbitration Act ("FAA") and the terms of this
Agreement.

A.3 Should either of us try to resolve a covered claim with
the other party before filing arbitration?
We prefer to resolve any dispute directly with you. Before starting arbitration, the party who
has the claim or dispute shall notify the other party in writing and describe the dispute in
reasonable detail. Both of us shall attempt in good faith to resolve the claim or dispute.
However, if the dispute remains unresolved for thirty (30) days, then either of us may start
arbitration. This provision shall not apply when one of us files a lawsuit against the other
and the other party elects to arbitrate.

A.4 Are covered claims by you against our third parties also
subject to arbitration?
Any Covered Claim between you and any of the following persons must be arbitrated
pursuant to the terms of this Arbitration Addendum upon the election of either of us:


Our employees, representatives, or affiliated companies,



Any other company that provides or offers any product, service, or benefits relating to the
Account, or



Any other person or entity that could be jointly liable with either of us if a Covered Claim is
successfully pursued.

A.5 Can covered claims be litigated in small claims courts as
an alternative to arbitration?
Instead of proceeding to arbitration, either of us has the option to pursue a Covered Claim
in a Small Claims Court (or the equivalent) so long as (1) the Covered Claim remains in that
court, and (2) is made solely on behalf of the person making the Claim. If you or we file a
Covered Claim in a Small Claims Court, and the other party files a counterclaim, crossclaim, or third-party complaint seeking injunctive relief, damages in an amount greater than
the jurisdictional limit of the Small Claims Court or to obtain relief on behalf of other
persons, then neither you nor us will have waived any arbitration rights and either of us may
require the other's individual claims be arbitrated in accordance with the procedures set
forth in this Arbitration Addendum.

A.6 Where must arbitration be filed?
All arbitrations will be conducted by the following Arbitration Administrator:
American Arbitration Association ("AAA")
335 Madison Avenue, Floor 10
New York, NY 10017-4605
www.adr.org
If the AAA is unable or unwilling to serve as Administrator, then whoever initiates the
arbitration may chose an Administrator from a list maintained by USAA. If you do not agree
with the Administrator we chose, then you have the right to require use of a different

Administrator from our list. You may contact us or the Administrator to obtain information
about arbitration and to obtain the Administrator's arbitration rules ("Arbitration Rules"), as
well as any claim forms and fee schedules. We will also provide that information to you if
you ask for it.

A.7 How does either of us start arbitration?
Both of us must follow the Administrator's Arbitration Rules to begin arbitration. If you
choose to begin arbitration, you must send arbitration notices to us at:
USAA General Counsel
9800 Fredericksburg Road
San Antonio, Texas 78288
If we choose to begin arbitration, we must send notices to you at your last physical address
contained in our records. Both of us have the right to be represented by an attorney in the
arbitration proceedings.

A.8 How is the arbitrator selected?
The Administrator maintains a list of approved arbitrators. Upon request, the Administrator
will provide the names of seven (7) possible arbitrators. Both of us shall than have an
opportunity to strike three (3) persons from that list. You will make the first strike, and then
each of us shall alternate making strikes after that. After the last strike, the remaining
person shall serve as the arbitrator.

A.9 Who pays the arbitration fees and costs?
The Administrator charges certain fees in connection with arbitration proceedings
("Arbitration Fees"). We will pay any Arbitration Fees for any Covered Claim we file against
you. If you file a Covered Claim and cannot afford to pay the Arbitration Fees, and if the
Administrator determines that it will not waive any or all of the Arbitration Fees, then at
your request we will advance those fees on your behalf. At the end, the arbitrator will
ultimately decide who will be responsible for paying those and any other arbitration fees.
Unless inconsistent with applicable law or the Administrator's rules, the parties will pay for
their own arbitration costs (including fees and expenses of their own attorneys, experts, and
witnesses), regardless of which party prevails in the arbitration.

A.10 Where will arbitration be conducted?
The arbitration will be conducted at a place within the federal judicial district where your
physical address is located or in the federal judicial district within which a lawsuit between
you and us is pending and in which a motion to compel arbitration is made, unless both of
us agree on a different location. The arbitration proceedings shall be conducted by
telephone conference unless either of objects in writing to the Arbitrator.

A.11 What rules and laws will apply to the arbitration
proceedings?
The arbitrator must follow the Administrator's Arbitration Rules in effect at the time of the
arbitration, unless they conflict with the terms of this Agreement. The arbitrator must (a)
apply substantive law consistent with the FAA, (b) recognize and enforce all applicable
statutes of limitation, and (c) honor all privileges recognized at law (including without
limitation the attorney/client privilege and the attorney work product doctrine). The
arbitrator's findings, reasoning, decision, and award shall be set forth in writing and must be
based upon the laws governing this Agreement.

A.12 What limitations on proceedings and other rights apply?
The arbitrator shall be restricted to resolving only the Covered Claims between both of us.
Unless both of us consent in writing, the arbitrator shall NOT have the authority to conduct
any class-wide arbitration proceedings. The arbitrator may not consolidate or join together
any Covered Claims either of us has against the other with any claims or disputes either of
us may have with other persons or account holders, unless both of us consent in writing.
You may not pursue any type of collective action or class action against us in court or in
arbitration. You will not have the right to act as a class representative or participate as a
member of a class of claimants with respect to any Covered Claim as to which arbitration
has been elected. If one or more of the above limitations on proceedings and other rights is
deemed to be unenforceable or interpreted to not prevent a collective or class action, then
such collective or class action shall proceed in a court of law and not in arbitration.

A.13 What limitations apply to the arbitrator's authority.
The arbitrator may award any damages or other relief permitted by applicable substantive
law, including punitive damages. But the arbitrator may award punitive damages only under

circumstances where a court of competent jurisdiction could award such damages. In
awarding punitive damages, the arbitrator must abide by all applicable state and federal laws
regarding the amount of such damages, and the arbitrator must state the precise amount of
any punitive damages award. Before the decision becomes final, the arbitrator must also
conduct a post-award review of any punitive damages, allowing the parties the same
procedural rights and using the same standards and guidelines that would apply in a judicial
proceeding in the state where the arbitration is located. Any ruling based on this post-award
review must be set forth in writing with a reasoned explanation. The arbitrator may award
injunctive or declaratory relief that would benefit either of us, but the arbitrator may not
award injunctive or declaratory relief for the benefit of others who are not named parties to
the arbitration proceedings.

A.14 How is the arbitration decision enforced? Can the
decision be appealed?
The decision and judgment by the arbitrator shall be final, binding and enforceable in any
court having jurisdiction. The decision will become final and binding after 15 days unless
either of us seeks an appeal or review of the decision. Either of us has the option to appeal
the arbitrator's decision to a panel consisting of three new arbitrators who will be selected by
the strike process described in Section A.8 above. These arbitrators will consider all factual
and legal issues anew, will conduct the appeal in the same manner as the initial arbitration,
will make a decision based on the vote of the majority, and will issue a written decision
consistent with all of the previous terms of this Agreement. Whoever decides to appeal may
waive the three-arbitrator appeal process and directly seek judicial review of the arbitrator's
decision pursuant to 9 U.S.C. § 10. The arbitrator's decision (and, if appropriate, the panel's
decision) may be judicially reviewed on all grounds set forth in 9
U.S.C. § 10, as well as on the grounds that the decision is manifestly inconsistent with the
terms of the Agreement or any applicable laws or regulations.

A.15 Can we use a court to enforce our rights to arbitrate?
Nothing in this Agreement shall prevent either of us from enforcing all rights under this
Arbitration Addendum if a Covered Claim is filed in court.

A.16 Miscellaneous
The transactions between us involve interstate commerce and the FAA governs this
Arbitration Addendum. State arbitration laws and procedures shall not apply to this
Agreement. This Arbitration Addendum shall survive bankruptcy and termination or
modification of the Online Agreement. If either of us do not request arbitration for a
Covered Claim, it shall not be considered a waiver of the right to request arbitration for
another Covered Claim. In the event of any conflict between this Arbitration Addendum and
any other provision of the Credit Card Agreement, this Arbitration Addendum shall control.
This Arbitration Addendum apply to and run to the benefit of both of our successors,
assigns, transferees, executors, heirs, and representatives.
You understand and agree that if either of us elect to arbitrate a covered claim, this arbitration addendum
precludes both of us from litigating claims through court or having a jury trial on that claim, or engaging in
pre-arbitration discovery except as provided for in the arbitration rules. Further, neither of us will have the
right to participate as a representative or member of any class of claimants pertaining to any claim subject
to arbitration. The arbitration decision will generally be final and binding. Other rights that you would have
if you went to court may also not be available in arbitration.

131910-0217

132713-0720

USAA Credit Card Agreement Addenda
Military Lending Act Addendum
This Military Lending Act (MLA) Addendum is part of the USAA Credit Card Agreement (Agreement) if your Account
was opened on or after October 3, 2017 and at the time your Account was opened you were a Covered Borrower.
1) Definitions

A "Covered Borrower" is a consumer who, at the time of application for a credit card Account, was either
(1) a member of the armed forces serving on active duty pursuant to title 10, title 14, or title 32 under a call or
order that does not specify a period of 30 days or fewer, or active guard and reserve duty pursuant to 10
U.S.C. Section 101(d)(6); or (2) a dependent of such an active duty servicemember.
All other capitalized words in this MLA Addendum have the same meanings as in the Agreement. The terms "each of
us," "either of us," "neither of us," "both of our," or "both of us" refer to "you and we" or "you and us."
2) Determining who is a Covered Borrower

We determine whether you are a Covered Borrower at the time of application based on your status as indicated in
the Defense Manpower Data Center (DMDC) maintained by the Department of Defense (DOD).
3) Arbitration Does Not Apply to Accounts Opened by a Covered Borrower

The Arbitration Addendum is not enforceable against a Covered Borrower and therefore it does not
apply to an Account opened by a Covered Borrower. Notwithstanding anything else in the Agreement,
we cannot compel you to resolve disputes through arbitration on an Account you
opened when you were a Covered Borrower even after you cease to be an active duty servicemember or
the dependent of an active duty servicemember.
4) Construction of This Agreement

Notwithstanding any other provision of this Agreement, if you are a “Covered Borrower”, then nothing in this
Agreement shall be construed as applying to you to the extent inconsistent with the Military Lending Act, including
without limitation any interest, fees, or limitations on your rights that would not be consistent with the Military
Lending Act.
5) Statement of Military Annual Percentage Rate (MAPR)
Federal law provides important protections to active duty members of the Armed Forces and their dependents
relating to extensions of consumer credit. In general, the cost of consumer credit to a member of the Armed Forces
on active duty at the time of application and his or her dependent(s) may not exceed an annual percentage rate of
36 percent. This rate must include, as applicable to the credit transaction or account: The costs associated with
credit insurance premiums; fees for ancillary products sold in connection with the credit transaction; any application
fee charged (other than certain application fees for specified credit transactions or accounts); and any participation
fee charged (other than certain participation fees for a credit card account). The protections under Section 5 will no
longer apply to your credit card account when you are no longer considered a "Covered Borrower." Please call tollfree 877-425-1377 to hear this disclosure orally.
Please see Minimum Payment Addendum located on the reverse side of this page.

1 of 2

132713-0720

Minimum Payment Addendum
When we send you a bill, it will show your Minimum Payment Due. We must receive payment of at least the
Minimum Payment Due by the Payment Due Date on the bill. Notwithstanding anything to the contrary in Section
23 of the USAA Credit Card Agreement, the amount of your Minimum Payment Due will be the greater of: (1) the
sum (rounded to the nearest dollar) of 1% of your New Balance plus the interest and fees we charged as shown on
the bill and any past due amounts; or (2) $15. However, if your New Balance exceeds your Credit Limit, then at
our option, we may require you to pay any amount up to the entire overlimit amount instead of the Minimum Payment
Due. In no event will your Minimum Payment Due exceed the amount of your New Balance. We may adjust your
Minimum Payment Due in accordance with our PayAhead Program.

2 of 2

132713-0720

